BECKER GALLAGHER
Briefs

Supreme Court of the United States
United States Courts of Appeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in
Pennsylvania Higher Education Assistance Agency v.
Susan Allan; Jessica Wilson was sent via Next Day
Service to the U.S. Supreme Court, and e-mail to the
following parties listed below, this 20th day of
November, 2020:
Adam Theodore Hill
The Law Offices of Jeffrey Lohman, P.C.
28544 Old Town Front Street
Suite 201
Temecula, CA 92590
(657) 236-3525
adamh@jlohman.com
Counsel for Respondents

George W. Hicks, Jr.
Counsel of Record
Michael D. Lieberman
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
george .hicks@kirkland.com
Counsel for Petitioner

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 20, 2020.

Donna J. Wolf
Becker Gallagher Legal Pub · fling, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.
Date:

/<./�� bu__ .J O I Jo a-o
�
fJ,

drA
Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

